                     AUDIT OF AN SBA GUARANTEED LOAN TO

                                         [Exemption 6]

                            PALMAREJO SERVICE STATION 


                                       Lajas, Puerto Rico 


                                  Audit Report Number: 7-05 


                                       December 20,2006 





The finding in this report is the l:ondusion of tbe Ofnce of Inspector General's Auditing Division
based on testing of SBA operations. Tbe finding and recommendation are subject to review,
management decision, and corrective action in accordance with existing Agency procedures for
follow-up and resolution.
                    U.S. SMALL BUSINESS ADMINISTRATION
                        OFFICE OF INSPECTOR GENERAL 

                            WASHINGTON, D.C. 20416 


                                                                  AUDIT REPORT
                                                          Issue Date: December 20, 2006
                                                          Report Number: 7-05                  li



To:        Janet A. Tasker
           Acting Associate Administrator for Financial Assistance

           /S/ original signed
From:      Debra S. Ritt
           Assistant Inspector General for Auditing

Subject:   Audit of an SBA Guaranteed Loan to [Exemption 6]             dba Palmarcjo
           Service Station

        The purpose of this memorandum is to notify you of a $31.463 improper payment
that should be recovered. During our audit of the guarantee purchase process at the
National Guaranty Purcha<ie Center, we identified a problematic loan
 [Exemption 2]           made by Banco Santander Puerto Rico to [Exemption 6]
dba Palmarejo Service Station (borrower). We reviewed the loan to determine if the
lender originated, serviced and liquidated the purchased loan in accordance with Small
Business Administration (SBA) rules and regulations. The audit was conducted during
July 2006 in Dallas, Texas in accordance with Governmem Auditing Standards
prescribed by the Comptroller General of the United States.

             SBA is authorized under Section 7(a) ofthe Small Business Act to provide



        financial assistance to small businesses in the form of government-guaranteed
loans. SBA loans are made by participating lenders under an agreement (SBA Form 750)
to originate, service and liquidate loans in accordance with SBA regulations, policies, and
procedures. If a lender fails to comply materially with SBA regulations, the Joan
agreement, or does not make, close, service, or liquidate a loan in a prudent manner, SBA
has exclusive discretion to release itself from liability, in whole, or in part, on the loan
guarantee.

       On June 9, 1999, SBA approv·ed a $400.000 loan to the bonower and on
September 27, 1999, approved an $80,000 increase, bringing the total approved loan
amount to $480,000. The loan was approved using regular 7(a) loan procedures.
Therefore, SBA was responsible for determining the eligibility and credit risk of the
borrower, and the lender \vas required to service and liquidate the loan in accordance
with SEA's regulations, policies and procedures. The borrower was an existing gasoline
service station and the purpose of the loan was to purchase adjacent land ($73,000),
renovate and expand the service station ($117,814), payoff an interim loan ($225,000),
finance inventory (527,000), and provide working capital ($37, 186). The loan was fully
disbursed on September 30, 1999. The borrower demonstrated repa:yn1ent problems
bcgi1ming in November 2000 and defaulted on November 2, 2001, atler filing for
bankruptcy. The borrower's bankruptcy filing \Vas eventually dismissed on October 21,
2003 and the borrower re-filed for bankruptcy on January 7, 2004. Due to the borro\-\·er's
early repayment problems, this is considered an early problem loan. The purchase review
decision was approved by the National Guaranty Purchase Center on April 5, 2005, and
no material deficiencies \vere identified. SBA purch<Jsed the guarantee for $316,939 on
April 7, 2005.

The Lende.- Misapplied Loan Payments to Interest

        The lender incorrectly applied a p011ion of the loan payments received while the
loan was in liquidation status to interest. This deficiency was not detected during the
guarantee purchase process and as a result, SBA made a $31,463 improper payment when
it honored the guarantee.

         Standard Operating Procedures (SOP) 50 51 2 states that a loan must be
transferred to liquidation status when a voluntary or involuntary bankruptcy petition is
filed and cannot be removed from liquidation status unless either a workout plan has been
developed, or a term compromise agreement or ajudgmcnt has been obtained and at least
three monthly payments have been made, as agreed. All proceeds received while the loan
is in liquidation must be applied to the principal balance of the loan.

        The loan transcript showed that between the first and second bankruptcy filing,
the borrower made 14 sporadic, partial payments totaling $50,894. The lender
inappropriately recorded $30,677 of these payments as interest. Because the loan did not
meet the requirements to be removed from liquidation status bet\veen the first bankmptcy
filing on November 2, 2001, and when SBA purchased the guarantee on April 7, 2005,
the loan payments should have been applied solely to the principal while the loan was in
liquidation. Furthem1ore the lender recorded $6,950 received subsequent to the second
bankruptcy as interest.

         The purchase reviewer properly adjusted the loan balance for the $6,950 received
subsequent to the filing of the second bankruptcy, but did not reduce the loan balance by
the $30,677 that \vas applied to interest between the two bankruptcy filings. Lenders are
entitled to 120 days of accrued interest at the time of purchase. As a result, the purchase
reviewer paid the lender for its share of the 120 days of interest \vhich was calculated on
the overstated loan balance. This resulted in $786 of excess interest paid to the lender at
the time of purchase. It appears the National Guaranty Purchase Center was not a\\'are of
the first bankruptcy filing as the related documents were only available in the lender's
file.
        Because the lender did not comply with SBA's policies and incorrectly applied a
portion of the payments to interest after the loan was in liquidation status, a partial
recovery in the amount of the $3 L463 ($30,677 of misapplied interest plus $786 of
excess interest paid at purchase) is warranted . During the audit, this finding \vas
discussed with the lender. The lender agreed with the finding and submitted a corrected
loan transcript showing the adjustment for the $30,677 misapplied to interest.

Recommendation

       We recommend that the Acting Associate Administrator for Financial Assistance:

       Seek recovery of $31,463 less any subsequent recoveries, from the lender on the
       guarantee paid.

Lender Comments

        The lender agreed that loan payments were misapplied to interest and that
$31 ,463 should be recovered by SHA. The lender's response is included as Appendix I.

Agency Comments

       SBA Management agreed with the finding and recommendation.

Office of Inspector General Response

      The lender and SBA Management comments were responsive to our tJ.nding and
recommendation.

       We appreciate the courtesies and cooperation ofOftice of Financial Assistance
representatives during this audit. If you have any· questions concerning this report. please
call me at (202) 205-      or Robert Hultberg, the Program Director, at (202) 205- [Exemption 2]
                 [Exemption 2]
                                                                            Appendix I


Banco
Santander
Puerto Rico



 'ovcmbcr 29 2006

Ms. Terry Settle
SBA Office of Inspector General
1145 Herndon Parkway
Suite 900

Herndon, Virginia 20170

Subject: Audit of the case Palmarejo Service Station
GPME [Exemption 2]

Dear Ms. Settle

In reference to the letter dated on November 7, 2006 we determinate the following
conunents:

   • 	 The case was "early default" since payments problems started early in the loan.
       Then client filed an bankruptcy petition.
   • 	 We agreed that the payment were incorrectly applied. The amount of$31, 463.00
       was improper payments that should be recover by SBA. However, we consider
       that if the case was analyzed and approved for the guarantee payment on April 5,
       2005, we should be notified before the recommendation of the SBA Purchase.

We recommend the recover of $31,463.00. We will send the requested amount as soon as
possible.

Sincerely,

/S/ original signed
 [Exemption 6]

Guaranteed Loan Office
Banco Santander Pue110 Rico
787-777- [Exemption 6)
                                                                                                        Appendix Jl


                                  AUDIT REPORT DISTRIBUTION 



Recipient                                                                                           No. of Copies 


Associate Deputy Administrator for Capital Access ................................................ 1 


General Counsel .................................... .                  ..................................... 3 


Deputy General Counsel ....................... .                         ................................... 1 


United States Government Accountability Office .................................................... l 


Office of the Chief Financial Officer 

Attention: Jeff Brown ..................................... .      . ............. ... ... ...... .. .... .......... 1 

